July 16, 2004
Report No. 04-025


Regional Contract Operations




             AUDIT REPORT
                                                 TABLE OF CONTENTS


BACKGROUND ........................................................................................................................... 1

      Regional Contract Activity ................................................................................................... 2

RESULTS OF AUDIT.................................................................................................................. 3

INDEPENDENCE OF THE REGIONAL CONTRACTING FUNCTION ............................ 4
   Control Environment for the Contracting Function.......................................................... 4
   Chicago and San Francisco Regional Offices...................................................................... 4
   Atlanta, New York, and Dallas Regional Offices................................................................ 4
   Regional Managers’ Perspective .......................................................................................... 4
   Additional Needed Controls.................................................................................................. 5
   Regional Contracting Concerns ........................................................................................... 5
   Recommendations.................................................................................................................. 5

CORPORATION COMMENTS AND OIG EVALUATION................................................... 5

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY ........................................7
APPENDIX II: CORPORATION COMMENTS ..................................................................10
APPENDIX III: MANAGEMENT RESPONSES TO THE RECOMMENDATIONS.......13

TABLE
Phases and Activities of the Contracting Process .......................................................................8

FIGURES
Figure 1: FDIC Open Contracts, by FDIC Office, as of March 1, 2004 ..................................2
Figure 2: Open Regional Contracts as of March 1, 2004 ..........................................................2
Figure 3: DOA Regional Office Structures ................................................................................3
Figure 1: FDIC Open Contracts, by FDIC Office, as of March 1, 2004

                  Number of Contracts                                    Amount Spent (Millions)

                                           Atlanta
                                           51 (4%)
                                                                                                     Dallas
                                                                                                    $24 (5%)
                                           New York
                                            78 (7%)
             Washington                                         Washington
             627 (56%)                                                                                Other
                                           Chicago              $441 (92%)
                                           51 (4%)                                                   Offices
                                                                                                    $13 (3%)
                                             Dallas
                                           241 (21%)

                                               San
                                            Francisco
                                             87 (8%)


Source: DOA ASB Contract Monitoring Information Application (CMIA).*
*The CMIA system provides contract administration and oversight personnel timely and easy access to procurement
 data.

Regional Contract Activity

ASB regional staff award and administer                Figure 2: Open Regional
contracts for DOA, the Division of Resolutions         Contracts as of March 1, 2004
and Receiverships (DRR), and the Division of
Supervision and Consumer Protection (DSC).
As shown in Figure 2, DOA is the program                500
office for 351 (69 percent) of the 508 open             400       351
contracts awarded and administered by the
ASB regional staffs as of March 1, 2004. The            300
DRR Dallas office is the program office for             200                    147
147 regional contracts awarded and
                                                        100
administered by the Dallas ASB staff. The                                                 10
regional DSC offices are the program offices              0
for a total of 10 contracts awarded and                          DOA
                                                                 DOA          DRR
                                                                              DRR       DSC
                                                                                         DSC
administered by the Chicago, Dallas, New
York, and San Francisco ASB staffs. The
                                                      Source: ASB CMIA.
DOA regional offices perform both ASB and
program office contracting functions for the 351 DOA contracts. As shown in Figure 3, DOA
has established three reporting structures for its regional contracting functions. DOA’s regional
program offices are ultimately responsible for contract award and administration and contractor
oversight for DOA contractors.




                                                        2
    Figure 3: DOA Regional Office Structures

          Dallas
                                                   Regional Manager
                                                   (Program Office)


               Acquisition Services Branch                                   Corporate Services Branch
           (Contract Award and Administration)                                (Contractor Oversight)


         Atlanta and New York
                                                   Regional Manager
                                                   (Program Office)



                Assistant Regional Manager                                   Corporate Services Branch
            (Contract Award and Administration)                               (Contractor Oversight)



          Chicago and San Francisco

                                                  Regional Manager
                                                  (Program Office)


                                              Assistant Regional Manager
                             (Contract Award and Administration)    (Contractor Oversight)


     Source: OIG Analysis.


RESULTS OF AUDIT

Overall, based on our review of 30 contracts with expenditures totaling $11.8 million, we
concluded that regional contracting controls are generally adequate to ensure that regional
contracts are awarded and administered in accordance with the FDIC’s Acquisition Policy
Manual (APM). We did not identify any significant patterns or trends of noncompliance with
APM provisions by the regional office contracting operations.4 However, DOA regional ASB
staffs are not fully independent of the regional program office. Consequently, DOA regional
program office managers could influence the regional contract award and administration process.
Therefore, we are recommending that DOA establish measures to promptly mitigate the lack of
separation of duties and determine whether long-term organizational changes are required to
more fully ensure regional ASB independence.




4
 We identified minor compliance issues that we brought to the attention of ASB-Dallas management and DOA’s
Management Support Section.


                                                            3
INDEPENDENCE OF THE REGIONAL CONTRACTING FUNCTION

The contract award and administration function for regional contracts reports to the regional
program office that provides oversight of DOA contractors. Specifically, contracting officers for
DOA contracts report to the DOA regional managers as second-level supervisors. This reporting
structure conflicts with FDIC policy that the integrity and independence of the contracting
function be preserved. Consequently, the potential exists for program office managers to
influence the contract award and administration process for DOA contracts.

Control Environment for the Contracting Function

According to the APM, the location of the contracting function within the organizational
structure should ensure that the integrity and independence of the contracting function are
preserved. DOA’s ASB is responsible for ensuring the integrity of the contracting process by
independently managing, controlling, and directing all phases of the contracting process.

Chicago and San Francisco Regional Offices

The working relationship between the contracting officers and contractor oversight managers in
the Chicago and San Francisco offices has sometimes been strained, in part, because the
contracting officers are not independent of the regional program office. Two regional
contracting officers expressed concerns that the effectiveness of the contract award and
administration function is reduced by the influence of the regional DOA program office. Due to
the sensitive nature of contracting actions, we are not including examples illustrating the
contracting officers’ concerns in this report. However, we discussed these examples with DOA
management.

In addition, contract policies and procedures are established by the ASB in Washington, D.C.;
however, the performance of regional office ASB personnel in relation to contract award and
administration is evaluated by the DOA assistant regional managers. Consequently, contracting
officers could attach more importance to achieving regional goals than to ensuring the integrity
of the contracting process.

Atlanta, New York, and Dallas Regional Offices

The contract award and administration staff at the Atlanta, New York, and Dallas offices also
report to their respective DOA regional manager as a second-line supervisor. The contracting
officers in these offices did not express concerns about reporting to the program office, and we
found no evidence of regional management influence. However, the potential still exists for the
program office to influence the award and administration of DOA contracts.

Regional Managers’ Perspective

The regional managers view their function as supporting the regional staff in performing all
DOA functions. The regional managers rely on the regional contracting officers for contracting
decisions and are rarely involved in a contracting issue. In cases requiring their involvement,
regional managers make decisions based on FDIC guidelines, ASB advice, best value for the
FDIC, and cost avoidance. In some offices, downsizing and restructuring have resulted in a lack


                                                4
of a separation of contractor oversight functions; however, the regional managers believe that
FDIC policies and procedures, including the APM and headquarters reviews of regional office
activities, are adequate to ensure the integrity of the contracting process.

Additional Needed Controls

Established controls help to reduce the FDIC’s risks and help ensure that contracting deficiencies
are identified. For example, DOA’s Management Services Branch performs annual
administrative compliance reviews of each office in order to evaluate whether assets are
protected and controls are working as designed. In addition, regional managers do not have the
authority to approve contracts involving expenditures over $500,000, providing assurance that
these contracts are reviewed and approved by senior management officials in Washington, D.C.
As of March 1, 2004, 17 contracts, 4.8 percent of the 351 open DOA contracts, involved
expenditures over $500,000. Nevertheless, to preserve the independence of the contracting
process and avoid potential conflicts of interest for regional DOA contracts, the contract award
and administration function should be separate from the contractor oversight function.

Regional Contracting Concerns

In conducting this audit, we noted that there has been a major reduction in DOA’s regional
contract activity workload without an equivalent decrease in staffing. From January 1, 1999
through December 31, 2003, the number of contract awards at the five regional offices decreased
80 percent, and the total dollar amount of the contracts awarded decreased 73 percent. During
the same period, the regional contracting staff decreased 47 percent, from 36 to 17 employees.
In addressing our recommendation, DOA should consider whether changes to the procurement
process will result in further reductions in regional contracting staff. We are currently
conducting an audit entitled, FDIC’s Procurement of Administrative Goods and Services
(Assignment Number 2004-031), which includes an analysis of contracting workload and
alternatives to the current contracting process. We expect the audit results to provide additional
insight into this issue.

Recommendations

We recommend that the Director, DOA:

    (1) Establish measures to mitigate the lack of a separation of duties between the regional
        contracting functions and program offices.

    (2) Determine, as part of ongoing corporate and DOA initiatives, whether long-term
        organizational changes are necessary to ensure the independence and integrity of the
        DOA regional contracting function.

CORPORATION COMMENTS AND OIG EVALUATION

On July 12, 2004, the Director, DOA, provided a written response to the draft report, which is
presented in its entirety in Appendix II of this report. DOA generally agreed with both
recommendations and has either completed or planned corrective action to address them. The
following summarizes management’s response to each recommendation.


                                                5
   1. Establish measures to mitigate the lack of a separation of duties between the regional
   contracting functions and program office.

DOA concurred with the recommendation. On July 6, 2004, the Director, DOA, issued a
memorandum to all regional office contracting personnel, stressing the importance of preserving
the integrity and independence of the contracting function and emphasizing that all regional
office contracting personnel must feel free from conflicts of interest in performing their
contracting duties. The memorandum also provides guidance to regional contracting personnel
to seek resolution of any conflicts through the Associate Director, ASB, in Washington, D.C.

Management’s action was responsive to the recommendation. The recommendation is resolved,
dispositioned, and closed.

   2. Determine, as part of ongoing corporate and DOA initiatives, whether long-term
   organizational changes are necessary to ensure the independence and integrity of the
   DOA regional contracting function.

DOA concurred with the recommendation. DOA will evaluate its organizational structure to
ensure that it is organizationally aligned to best serve and support the administrative needs of the
Corporation in a changing environment. As part of this evaluation, DOA will review whether
changes are needed to the regional contracting structure. DOA expects to complete this
evaluation within 12 to 18 months.

Management’s planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective action has been completed and is effective.




                                                 6
                                                                                                    APPENDIX I




                           OBJECTIVE, SCOPE, AND METHODOLOGY
Objective

The objective of the audit was to determine whether regional contracts were awarded and
administered in accordance with FDIC policies and procedures. We performed our audit from
September 12, 2003 through May 18, 2004 in accordance with generally accepted government
auditing standards.

Scope

Originally, the scope of the audit covered 207 open and 49 closed contracts that were awarded
and administered by the Dallas, Texas, regional office as recorded in the Contract Monitoring
Information Application (CMIA) as of September 23, 2003.5 We expanded the scope to include
a total of 502 open contracts awarded and administered by the Atlanta, Georgia; New York, New
York; Chicago, Illinois; Dallas, Texas; and San Francisco, California; offices as of January 28,
2004. The FDIC contracting activity summarized in the background of this report covers the
508 open contracts awarded and administered by the DOA regional offices as recorded in the
CMIA as of March 1, 2004.

Methodology

To accomplish our objective, we interviewed regional managers, contracting officers, and
contracting personnel in FDIC’s regional offices in Atlanta, Dallas, Chicago, and San Francisco.
Contracting for the New York region is administered by the Boston, Massachusetts, area office,
and we interviewed the assistant regional manager and contracting officer in Boston and the
regional manager in New York. We also reviewed contract documentation at the Atlanta, Dallas,
Chicago, and San Francisco offices.

We reviewed the contract files and supporting contracting documentation for 30 contracts; 4 in
Atlanta, 6 in Chicago, 14 in Dallas, and 6 in San Francisco. We selected a judgmental sample of
24 open contracts based on the amount of the contract, dates of disbursement activity, and other
parameters recorded in the CMIA system. We selected our sample of 8 Dallas contracts from the
207 open Dallas contracts recorded in the CMIA as of September 23, 2003. We selected our
sample of 4 Atlanta, 6 Chicago, and 6 San Francisco office contracts from the 502 open regional
contracts recorded in the CMIA as of January 28, 2004. For review of the contract closeout
activity, we selected 6 Dallas office contracts from 49 recently closed Dallas contracts recorded
in the CMIA as of September 23, 2003.

Management Controls

To evaluate management controls for regional contract operations, we reviewed the
Administrative Compliance Review reports prepared by the DOA Management Services Branch
and corresponding review procedures and interviewed a Management Services Branch
management analyst in Washington, D.C. We used the FDIC Acquisition Policy Manual (APM)
5
 CMIA recorded 2,273 closed Dallas contracts with final expiration dates ranging from 1995 through 2020. To
work with recently closed contracts, we considered only those closed contracts with a final expiration date after
August 31, 2003 and reduced the total number to 49 contracts.


                                                          7
                                                                                  APPENDIX I




as our criteria for evaluating regional contract operations. The APM divides the contracting
process into the 5 phases and 25 management control activities illustrated below.

Phases and Activities of the Contracting Process
         Phase                                  Activity
 Pre-solicitation        Requirement identified
                         Article 17, “Contracting Out” documentation
                         Expenditure authority approved
                         Statement of work prepared
                         Price estimate
                         Requirements packages to ASB
                         Evaluation criteria developed
                         Source selection plan
                         Source list prepared
 Solicitation            Identification of prospective offerors
                         Solicitation distribution list prepared
                         Solicitation issued
                         Proposal receipt
 Evaluation              Technical evaluation
                         Price evaluation
                         Competitive range decisions
                         Call for best and final offers
                         Contractor eligibility reviews
 Award                   Contract award
 Administration          Performance
                         Processing and paying invoices
                         Tracking invoices against expenditure ceilings
                         Executing modifications
                         Audit resolution
                         Closeout
 Source: The FDIC Acquisition Policy Manual.

Computer-Processed Data

We used the CMIA system to provide lists of FDIC contracts and to provide background
information about the FDIC’s overall contract activity. We corroborated the CMIA information
with information in the contract files for the sampled contracts. Although we used the CMIA
processed data as general background information in the report, we did not use the CMIA
information to support our findings, conclusions, and recommendations.




                                                8
                                                                                   APPENDIX I




Fraud and Illegal Acts

Our audit procedures detected no fraudulent or illegal acts. The OIG Office of Investigations
(OI) shared a Hotline complaint with us concerning contract operations at one regional office.
OI determined that there was no investigative merit to the allegation. During our audit, we
determined that the Hotline issues related to the independence of the contracting function as
discussed in the finding section of this report.

Performance Measures

We reviewed the FDIC 2003 Corporate Annual Performance Plan and found no performance
measures related to regional contract operations.

Laws and Regulations

No laws or regulations were relevant to our audit objective.




                                                9
                       APPENDIX II



CORPORATION COMMENTS
     APPENDIX II




11
     APPENDIX II




12
                                                                                                                                            APPENDIX III




                                          MANAGEMENT RESPONSES TO THE RECOMMENDATIONS

     The information in this table is based on management’s written response to our report. The table also presents the status of the
     recommendations as of the date of report issuance.

                                                                                                                                                           Open
      Rec.                                                                     Expected            Monetary      Resolved:a      Dispositioned:b            or
     Number          Corrective Action: Taken or Planned/Status             Completion Date        Benefits      Yes or No         Yes or No              Closedc
       1            The Director, DOA, issued a memorandum to                  Completed            None            Yes               Yes                 Closed
                    all regional office contracting personnel,                July 6, 2004
                    stressing the importance of preserving the
                    integrity and independence of the contracting
                    function. The memorandum also provides
                    guidance to regional contracting personnel to
                    seek resolution of any conflicts through the
                    Associate Director, ASB, in Washington, D.C.
            2       As part of DOA’s evaluation of its                      January 12, 2006         None            Yes               No                  Open
13




                    organizational structure, DOA will determine
                    whether changes are needed to the regional
                    contracting structure.
     a
         Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                    (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                    (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
                        long as management provides an amount.
     b
         Dispositioned – The agreed-to corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
         through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition
         the recommendation.
     c
         Once the OIG dispositions the recommendation, it can then be closed.
